No. _________

In The

Supreme Court of the United States
REBECCA A. MORIELLO,
Petitioner,

v.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

_____________________
APPENDIX TO PETITION FOR WRIT OF CERTIORARI
_____________________

W. ROB HEROY
Counsel of Record
GOODMAN, CARR PLLC
301 South McDowell Street
Suite 602
Charlotte, NC 28204
(704) 372-2770
rheroy@goodmancarr.net
Counsel for Petitioner
GibsonMoore Appellate Services, LLC
206 East Cary Street ♦ P.O. Box 1460 (23218) ♦ Richmond, VA
804-249-7770 ♦
www.gibsonmoore.net

23219

TABLE OF CONTENTS
Appendix
Page:
Opinion
United States Court of Appeals for the Fourth Circuit
entered November 18, 2020. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
Judgment
United States Court of Appeals for the Fourth Circuit
entered November 18, 2020. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21a
Order
United States District Court for the
Western District of North Carolina - Asheville Division
entered June 7, 2019. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22a
Judgment in a Criminal Case
United States District Court for the
Western District of North Carolina - Asheville Division
entered June 7, 2019. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54a
Federal Management Regulations 102-74.385 and 102-74.390. . . . . . . . . . . 55a
Bill of Information
United States District Court for the
Western District of North Carolina - Charlotte Division
entered December 5, 2017. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56a
United States District Court Violation Notices. . . . . . . . . . . . . . . . . . . . . . . 58a

-i-

USCA4 Appeal: 19­4464

Doc: 45

Filed: 11/18/2020

Pg: 1 of 20

PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19­4464

UNITED STATES OF AMERICA,
Plaintiff ­ Appellee,
v.
REBECCA A. MORIELLO,
Defendant ­ Appellant.

Appeal from the United States District Court for the Western District of North Carolina, at
Asheville. Martin K. Reidinger, Chief District Judge. (1:18­cr­00187­MR­1)

Argued: September 10, 2020

Decided: November 18, 2020

Before MOTZ, KING, and FLOYD, Circuit Judges.

Affirmed by published opinion. Judge Floyd wrote the opinion in which Judge Motz and
Judge King joined.

ARGUED: William Robinson Heroy, GOODMAN, CARR, LAUGHRUN, LEVINE &
GREENE PLLC, Charlotte, North Carolina, for Appellant. Anthony Joseph Enright,
OFFICE OF THE UNITED STATES ATTORNEY, Charlotte, North Carolina, for
Appellee. ON BRIEF: William T. Stetzer, United States Attorney, OFFICE OF THE
UNITED STATES ATTORNEY, Charlotte, North Carolina, for Appellee.

USCA4 Appeal: 19­4464

Doc: 45

Filed: 11/18/2020

Pg: 2 of 20

FLOYD, Circuit Judge:
Appellant Beckie Moriello challenges her conviction under two administrative
regulations for repeatedly refusing to comply with directions from an immigration judge
and a courtroom bailiff to cease distracting conduct during an immigration proceeding.
Moriello argues that the regulations are unconstitutionally vague, violate the nondelegation
doctrine, and run afoul of the Tenth Amendment. She also challenges the district court’s
interpretation of the regulations and the sufficiency of the evidence supporting her
conviction. We reject each of Moriello’s challenges and conclude that the regulations are
constitutional, the district court properly interpreted the regulations, and sufficient
evidence supports Moriello’s conviction.

I.
A.
Moriello works as an immigration attorney in Charlotte, North Carolina. On June
29, 2017, she appeared for a hearing on behalf of a client at the Charlotte Immigration
Court. The Charlotte Immigration Court is a federal facility of the Executive Office of
Immigration Review (EOIR) on property managed by the General Services Administration
(GSA). A placard displayed near the entrance notifies visitors that federal regulations
govern the facility.
Two such regulations are relevant here. The first, 41 C.F.R. § 102­74.385 (the
“Direction Regulation”), requires “[p]ersons in and on [the] property . . . [to] comply with
official signs of a prohibitory, regulatory or directory nature and with the lawful direction
2

USCA4 Appeal: 19­4464

Doc: 45

Filed: 11/18/2020

Pg: 3 of 20

of Federal police officers and other authorized individuals.” The second, 41 C.F.R. § 102­
74.390 (the “Conduct Regulation”), prohibits “[a]ll persons entering in or on Federal
property . . . from loitering, exhibiting disorderly conduct[,] or exhibiting other conduct on
property that . . . [o]therwise impedes or disrupts the performance of official duties by
Government employees.”
Following the hearing on behalf of her own client, Moriello observed an unrelated
asylum hearing over which Immigration Judge Barry J. Pettinato presided. Although the
proceedings were closed, Moriello obtained permission to observe from the asylum­
seeker’s attorney and sat in the courtroom gallery. A sign outside the courtroom stated:
“Persons in EOIR space must turn off their electronic devices (e.g., smartphone, laptop).
For clear and immediate business purposes only, attorneys and other representatives are
exempt from this rule . . . .” J.A. 327.
Protective Security Officer (PSO) Pinar Bridges was on duty as the uniformed
bailiff in the courtroom. PSOs at EOIR are independent contractors supervised by the
Federal Protective Service (FPS). Agent Frank Skrtic, an FPS special agent investigator,
testified at Moriello’s bench trial that PSOs “have the power to detain” people, “conduct
administrative searches, put people on notice,” “enforce the Federal Management
Regulations” at the facility, and otherwise carry out all the functions of FPS officers other
than “mak[ing] a full blown arrest.” J.A. 168–69. During the proceeding, PSO Bridges
saw Moriello typing on her phone in the courtroom. PSO Bridges knew that Moriello was
not representing anyone in the proceeding, so she assumed that Moriello had no immediate
business inside the courtroom. When PSO Bridges asked Moriello to turn off her phone,
3

USCA4 Appeal: 19­4464

Doc: 45

Filed: 11/18/2020

Pg: 4 of 20

Moriello responded that it was “her right” to use the phone for business purposes and
refused to turn off the phone. J.A. 196. PSO Bridges returned to her normal location next
to Judge Pettinato.
Though unaware of Moriello’s initial exchange with PSO Bridges, Judge Pettinato
also noticed Moriello typing on her phone. He saw that Moriello held her phone at chest­
level, easily visible to others in the courtroom. Judge Pettinato testified:
Ms. Moriello had specifically asked for permission to come into a private
confidential asylum hearing which is very rarely allowed. And I assumed it
was so that she could learn something from it. The entire time that Ms.
Moriello was sitting in my courtroom I did not see her paying attention to
what was going on with the attorney or with the witness. She was pretty
much non­stop glued to her cell phone and she was texting away, and I found
it to be very distracting. I also found it to be very disrespectful given that
she had asked for permission to sit in on this very sensitive matter, and she
was not paying attention.
J.A. 216–17. Judge Pettinato went off the record to direct PSO Bridges to tell Moriello to
stop using her phone. 1 After Judge Pettinato resumed the asylum hearing, PSO Bridges
again approached Moriello to ask her to comply with the Judge’s instruction to stop using
her phone.
Moriello again refused. She “became argumentative,” telling PSO Bridges that she
was using her phone for business purposes and that she can “do whatever she wants.” J.A.
407.

Judge Pettinato observed PSO Bridges speaking with Moriello for “some

considerable period of time.” J.A. 218. At some point, Judge Pettinato saw Moriello stand

1

According to Judge Pettinato, going off the record is “just a little click on [his]
mouse on the computer to turn the digital recording equipment on and off.” J.A. 216.

4

USCA4 Appeal: 19­4464

Doc: 45

Filed: 11/18/2020

Pg: 5 of 20

and move to the back of the courtroom as PSO Bridges continued to try to get her to either
stop using her phone or leave the courtroom. Though their conversation was not loud,
Judge Pettinato found the exchange to be “very disruptive visually.” Id. PSO Bridges
requested help from a second PSO. The two PSOs together were unable to convince
Moriello to either stop using her phone or leave—all while the immigration proceedings
remained ongoing.

PSO Bridges then called the Charlotte­Mecklenburg Police

Department (CMPD).
Judge Pettinato eventually called for a recess in the hearing “because [he] could see
that it had escalated into a more serious situation.” J.A. 219. During the recess, Moriello
remained in the courtroom and continued using her phone. The CMPD officers responded
to PSO Bridges’s call during the recess. They conveyed Judge Pettinato’s direction to stop
using her phone, and PSO Bridges also repeated the instruction. Moriello again refused.
The CMPD officers then escorted Moriello out of the courtroom and spoke with her about
leaving the premises. According to PSO Bridges, Moriello told the CMPD officers “that
the Judge cannot tell her what to do. That’s her right. She can be on the phone. It’s
business purposes only.” J.A. 198. Two FPS officers arrived and one of them wrote
Moriello a citation for violating the Direction Regulation.

B.
Shortly after Moriello’s case was filed in the Western District of North Carolina,
the government offered to settle the charge with no admission of guilt and a civil fine—at
one point as little as $300. Moriello rejected the offer and requested a criminal trial.
5

USCA4 Appeal: 19­4464

Doc: 45

Filed: 11/18/2020

Pg: 6 of 20

Moriello moved to dismiss the citation, alleging charging deficiencies.

The

government subsequently filed a superseding two­count bill of information. Count One
charged Moriello with failing to comply with the lawful direction of an authorized
individual while on property under the authority of the GSA in violation of the Direction
Regulation. See 41 C.F.R. § 102­74.385. Count Two charged Moriello with impeding and
disrupting the performance of official duties by government employees while on property
under the authority of the GSA in violation of the Conduct Regulation. See 41 C.F.R.
§ 102­74.390. Both offenses are Class C misdemeanors and are therefore petty offenses
subject to a maximum term of imprisonment of 30 days and a maximum fine of $5,000.
See 18 U.S.C. §§ 19, 3571(b)(6), 3559(a)(8); 41 C.F.R. § 102­74.450.
Moriello’s case was assigned to a magistrate judge. Moriello filed two motions to
dismiss. Her first motion argued that the regulations were unconstitutionally vague and
violated the separation of powers doctrine. Her second motion argued that the two counts
were multiplicitous under the Double Jeopardy Clause of the Fifth Amendment. The
magistrate judge denied both motions and thereafter presided over Moriello’s bench trial.
At the conclusion of the trial, the magistrate judge found Moriello guilty on both counts
and ordered her to pay a fine of $2,500.
On appeal to the district court, Moriello argued as follows: (1) PSO Bridges’s and
Judge Pettinato’s orders were not lawful under the Direction Regulation; (2) Moriello’s
conduct was not disruptive under the Conduct Regulation; (3) neither PSO Bridges nor
Judge Pettinato met the definition of an “authorized individual” under the Direction
Regulation or a “Government employee” under the Conduct Regulation; (4) both
6

USCA4 Appeal: 19­4464

Doc: 45

Filed: 11/18/2020

Pg: 7 of 20

regulations were promulgated pursuant to unconstitutional delegations of authority under
the nondelegation doctrine and the Tenth Amendment; and (5) both regulations were
unconstitutionally vague.
The district court affirmed the magistrate judge’s decision, holding that the
regulations were constitutional and sufficient evidence supported her conviction. Moriello
timely appealed to this Court.

II.
We review a trial court’s findings of fact for clear error, and findings of law de novo.
See United States v. Bursey, 416 F.3d 301, 306 (4th Cir. 2005). For questions of law such
as the “construction of an administrative regulation, we review the district court’s ruling
de novo.” Radford v. Colvin, 734 F.3d 288, 293 (4th Cir. 2013).
When considering a challenge to the sufficiency of the evidence to support a
conviction, this Court is “obliged to sustain a guilty verdict if, viewing the evidence in the
light most favorable to the Government, it is supported by ‘substantial evidence.’” United
States v. Allere, 430 F.3d 681, 692 (4th Cir. 2005) (quoting United States v. Burgos, 94
F.3d 849, 862 (4th Cir. 1996) (en banc)). “Substantial evidence” is “evidence that a
reasonable finder of fact could accept as adequate and sufficient to support a conclusion of
a defendant’s guilt beyond a reasonable doubt.” Burgos, 94 F.3d at 862. The same standard
applies when the defendant is convicted of a petty offense after a bench trial. See United
States v. Anglin, 438 F.3d 1229, 1231 (10th Cir. 2006); United States v. Burrell, No. 92­
5223, 1993 WL 73705, at *2 (4th Cir. Mar. 17, 1993) (per curiam).
7

USCA4 Appeal: 19­4464

Doc: 45

Filed: 11/18/2020

Pg: 8 of 20

III.
Moriello’s appeal presents five questions: (1) whether the regulations are
unconstitutionally vague; (2) whether the regulations violate the nondelegation doctrine;
(3) whether the regulations violate the Tenth Amendment; (4) whether the district court
properly interpreted the regulations; and (5) whether sufficient evidence supports
Moriello’s conviction. We consider each in turn.

A.
We first address Moriello’s argument that both regulations are unconstitutionally
vague. Under the vagueness doctrine, a criminal statute must “define the criminal offense
with sufficient definiteness that ordinary people can understand what conduct is prohibited
and in a manner that does not encourage arbitrary and discriminatory enforcement.” Doe
v. Cooper, 842 F.3d 833, 843 (4th Cir. 2016) (quoting Kolender v. Lawson, 461 U.S. 352,
357 (1983)). “[V]agueness challenges to statutes which do not involve First Amendment
freedoms must be examined in the light of the facts of the case at hand.” United States v.
Mazurie, 419 U.S. 544, 550 (1975). Thus, in cases not implicating the First Amendment,
“a plaintiff who engages in some conduct that is clearly proscribed cannot complain of the
vagueness of the law as applied to the conduct of others.” Vill. of Hoffman Ests. v. Flipside,
Hoffman Ests., Inc., 455 U.S. 489, 495 (1982); see also United States v. Baldwin, 745 F.3d
1027, 1031–32 (10th Cir. 2014) (Gorsuch, J.) (“The Supreme Court has told us (repeatedly)
that the relevant question in void for vagueness challenges is merely whether the defendant
8

USCA4 Appeal: 19­4464

Doc: 45

Filed: 11/18/2020

Pg: 9 of 20

before us ‘had fair notice from the language’ of the law ‘that the particular conduct which
he engaged in was punishable.’” (quoting Parker v. Levy, 417 U.S. 733, 755 (1974))).
Here, because Moriello does not bring a First Amendment challenge, our review is
limited to whether Moriello had fair notice that the regulations proscribed her conduct.
Moriello argues that neither regulation defines which individuals at the court facility an
ordinary citizen must obey and under what circumstances. Yet any person of ordinary
intelligence would understand that the regulations prohibit the repeated refusal to cease
distracting conduct in a courtroom during ongoing immigration proceedings as directed by
both the presiding immigration judge and the uniformed bailiff assigned to that courtroom.
Indeed, Moriello’s behavior was so disruptive as to prompt Judge Pettinato to call a recess
and PSO Bridges to seek assistance from one additional PSO and two additional CMPD
officers to remove Moriello from the courtroom.
Moriello attempts to take us beyond the facts of her own case, citing extensively to
facial vagueness and overbreadth precedent in the First Amendment context. As noted,
Moriello does not bring a First Amendment challenge. Her facial attacks are therefore
inappropriate. The parties’ focus on United States v. Cassiagnol, 420 F.2d 868 (4th Cir.
1970), in the context of a facial vagueness challenge is similarly misplaced. Cassiagnol is
useful only as an example of the relevant fact­bound inquiry in as­applied vagueness
challenges. In Cassiagnol, this Court concluded that the predecessor regulation to the
Conduct Regulation was not vague as applied to the defendant because it clearly prohibited
the conduct in which he engaged. See id. at 873–74 (“It would not require a high degree
of intelligence . . . for one to reasonably conclude that breaking through a line of United
9

USCA4 Appeal: 19­4464

Doc: 45

Filed: 11/18/2020

Pg: 10 of 20

States marshals . . . [or] remaining on government property which was closed to the
public . . . could subject him to charges . . . .”). Cassiagnol’s subsequent analysis of
whether the predecessor regulation was facially vague or overbroad under the First
Amendment is irrelevant for our purposes. See Vill. of Hoffman Ests., 455 U.S. at 495.
Accordingly, the district court properly rejected Moriello’s vagueness challenge.

B.
Next, we consider Moriello’s argument that the regulations violate the
nondelegation doctrine. “[A] statutory delegation is constitutional as long as Congress
‘lay[s] down by legislative act an intelligible principle to which the person or body
authorized to [exercise the delegated authority] is directed to conform.’” Gundy v. United
States, 139 S. Ct. 2116, 2123 (2019) (alterations in original) (quoting Mistretta v. United
States, 488 U.S. 361, 372 (1989)). In determining “whether Congress has supplied an
intelligible principle,” courts must first “constru[e] the challenged statute to figure out what
task it delegates and what instructions it provides,” and then “decide whether the law
sufficiently guides executive discretion.” Id. The Supreme Court has suggested that more
specific guidance may be required when Congress delegates authority to enact criminal
rules. See Touby v. United States, 500 U.S. 160, 165–66 (1991) (acknowledging that “[o]ur
cases are not entirely clear as to whether more specific guidance is in fact required” when
Congress is delegating authority “to promulgate regulations that contemplate criminal
sanctions”).

10

USCA4 Appeal: 19­4464

Doc: 45

Filed: 11/18/2020

Pg: 11 of 20

The regulations at issue here were promulgated pursuant to 40 U.S.C. § 1315
(formerly found at 40 U.S.C. § 318a (2002)). Congress delegated authority to the Secretary
of Homeland Security in consultation with the Administrator of General Services to
promulgate “regulations necessary for the protection and administration of property owned
or occupied by the Federal Government and persons on the property,” including
“reasonable penalties” of “not more than 30 days” in prison and fines in the amounts
allowed by Title 18. 40 U.S.C. § 1315(c).
We have already decided that § 1315’s predecessor statute, § 318a, is a
constitutional delegation of authority. See Cassiagnol, 420 F.2d at 876; United States v.
Crowthers, 456 F.2d 1074, 1077 (4th Cir. 1972) (citing Cassiagnol, 420 F.2d at 875–77)
(rejecting a nondelegation doctrine challenge to § 318a because “[i]t has been settled
otherwise in this circuit”). In Cassiagnol, we concluded that the predecessor to § 1315 was
constitutional because “[i]t is reasonable and constitutional to delegate to the agency
charged with maintenance and protection of government property the right to fix . . .
minimum acceptable conduct thereon, and to provide for the punishment of those violating
such regulations.” 420 F.2d at 876–77. We recognized that “[s]uch authority necessarily
had to be somewhat general in nature due to the vast number and great variety of properties
entrusted to the charge and control of GSA,” and that “[t]o require Congress specifically
to enumerate GSA’s duties would be to require the impractical, if not the impossible.” Id.
at 876. Yet, “this authority, contrary to appellants’ contention, was not unlimited”—rather,
the statute limited the GSA’s power to “mak[ing] ‘needful rules and regulations’ to

11

USCA4 Appeal: 19­4464

Doc: 45

Filed: 11/18/2020

Pg: 12 of 20

maintain and protect such property and ensure its use for the authorized purpose.” Id.
(quoting 40 U.S.C. § 318a (2002)). Cassiagnol is decisive here.
Moreover, the modern iteration of the delegating authority, § 1315, provides an even
narrower delegation than § 318a. Whereas § 318a delegated the authority to “make all
needful rules and regulations for the government of the property under [its] charge and
control,” 40 U.S.C. § 318a (2002), § 1315 specifies that the rules must be “for the
protection and administration of property owned or occupied by the Federal Government
and persons on the property,” 40 U.S.C. § 1315(c). Even assuming a higher standard exists
for regulations imposing criminal penalties, this is clearly a permissible delegation by
Congress in light of our precedent.
Moriello argues that the regulations nevertheless exceed the scope of the authority
delegated by § 1315 in two distinct ways.

First, she contends that the regulations

impermissibly bestow contempt authority on immigration judges when such authority
should be bestowed directly by Congress or promulgated under the code provisions relating
to the authority of immigration judges. Yet, as we explained in Cassiagnol, the delegating
statute was meant to “ensure [the] use [of federal property] for the authorized purpose.”
420 F.2d at 876. The regulations provide immigration judges the authority to ensure that
their courtrooms are used for the authorized purpose of conducting immigration
proceedings. Second, Moriello claims that the regulations’ provision of criminal sanctions
is inconsistent with their stated purpose of maintaining federal property. Not so. Section
1315 expressly delegates the authority to impose criminal sanctions for the protection and

12

USCA4 Appeal: 19­4464

Doc: 45

Filed: 11/18/2020

Pg: 13 of 20

administration of federal property and persons on federal property.

See 40 U.S.C.

§ 1315(c)(1).
The district court properly concluded that § 1315 is a constitutional delegation of
authority and that the regulations do not exceed the scope of that authority.

C.
Next, we consider Moriello’s argument that the regulations violate the Tenth
Amendment. “[P]owers not delegated to the United States by the Constitution, nor
prohibited by it to the States, are reserved to the States respectively, or to the people.” U.S.
Const. amend. X. The Constitution delegates to Congress the “[p]ower to . . . make all
needful Rules and Regulations respecting the . . . [p]roperty belonging to the United
States.” U.S. Const. art. IV, § 3, cl. 2. It also delegates the power to “make all [l]aws
which shall be necessary and proper for carrying into [e]xecution” the “[p]owers” it vests
“in the Government of the United States, or in any Department or Officer thereof.” U.S.
Const. art. I, § 8, cl. 18.
Moriello summarily asserts that “[t]he challenged regulations interfere with [her]
rights as a private citizen to disregard unwarranted exercise of authority.” Opening Br. at
36. The regulations here control the conduct of persons on federal property. These
regulations are firmly within the federal government’s power to make such laws as are
necessary and proper to regulate “[p]roperty belonging to the United States.” U.S. Const.
art. IV, § 3, cl. 2; see also U.S. Const. art. I, § 8, cl. 18; Serra v. U.S. Gen. Servs. Admin.,
847 F.2d 1045, 1049 (2d Cir. 1988) (concluding that the “GSA’s clearly established
13

USCA4 Appeal: 19­4464

Doc: 45

Filed: 11/18/2020

Pg: 14 of 20

authority to maintain, operate, and alter federal buildings” stems from “Congress’ power
under the Constitution ‘to dispose of and make all needful Rules and Regulations
respecting the . . . Property belonging to the United States.’” (quoting U.S. Const. art. IV,
§ 3, cl. 2)).
The district court properly concluded that the regulations do not violate the Tenth
Amendment.

D.
Next, we consider Moriello’s argument that her conviction under Count One was
improper because the district court misinterpreted the regulations. 2 As the district court
explained, conviction under the Direction Regulation requires the government to prove
three elements: “(1) that the Defendant was on property under authority of the GSA;
(2) that the Defendant knowingly failed to comply with the direction of a Federal police
officer or other authorized individual; and (3) that the direction with which the Defendant
failed to comply was lawful.” J.A. 413–14; see also 41 C.F.R. § 102­74.385. Moriello
argues that there was no “lawful” direction provided by an “authorized individual.” See
41 C.F.R. § 102­74.385.
Regulatory interpretation is a question of law. See Bursey, 416 F.3d at 306. This
Court construes a regulation using the same rules applicable to statutory construction. See

2

As the district court noted, Moriello improperly characterizes her challenges to
Count One as sufficiency­of­the­evidence arguments. We analyze them properly as
questions of law.

14

USCA4 Appeal: 19­4464

Doc: 45

Filed: 11/18/2020

Pg: 15 of 20

Harris v. Norfolk S. Ry. Co., 784 F.3d 954, 962 (4th Cir. 2015). If the language of the
regulation “has a plain and ordinary meaning, courts need look no further and should apply
the regulation as it is written.” Gilbert v. Residential Funding LLC, 678 F.3d 271, 276 (4th
Cir. 2012) (quoting Textron Inc. v. Comm’r, 336 F.3d 26, 31 (1st Cir. 2003)). If the
language is ambiguous, “the intent of Congress or the Agency concerning the disputed
language must be resolved through application of various settled rules of construction and
interpretation, including analysis of the underlying statute’s structure and purpose.” Am.
Alt. Ins. Co. v. Sentry Select Ins. Co., 176 F. Supp. 2d 550, 554–55 (E.D. Va. 2001) (citing
United States v. Jackson, 759 F.2d 342, 344 (4th Cir. 1985)).
First, Moriello asserts that only federal law enforcement personnel—not PSOs or
immigration judges—qualify as “authorized individuals” under the Direction Regulation.
Chapter 102 of the Code of Federal Regulations does not define the term “authorized
individual.” See generally 41 C.F.R. § 102. The plain meaning of “authorize,” when used
with a direct object that is “a person or agent,” means “[t]o give . . . legal or formal
authority (to do something).”

Authorize, Oxford English Dictionary (3d ed. 2014)

(emphasis in original). The Direction Regulation specifies that the relevant “something”
is issuing a “lawful direction.” 41 C.F.R. § 102­74.385.
Immigration judges have the legal and formal authority to issue lawful directions
during proceedings over which they preside. Immigration judges are legally authorized to
“conduct . . . proceedings,” “exercise their independent judgment and discretion,” and
“take any action consistent with their authorities under the [Immigration and Nationality
Act] and regulations that is appropriate and necessary for the disposition of such cases.” 8
15

USCA4 Appeal: 19­4464

Doc: 45

Filed: 11/18/2020

Pg: 16 of 20

C.F.R. § 1003.10(a)–(b). As the Eleventh Circuit recently noted, “an Immigration Judge’s
role in immigration proceedings” is “‘functionally comparable’ to that of a judge.” Stevens
v. Osuna, 877 F.3d 1293, 1302 (11th Cir. 2017). Immigration judges thus have “an
obligation to maintain control over the courthouse and over the conduct of persons in the
courthouse.” Id. at 1305.
Moriello argues that immigration judges cannot be “authorized individuals” because
their authority arises from immigration statutes and regulations, rather than GSA
regulations. However, nothing in the Direction Regulation requires that “authorized
individuals” receive their authority from the GSA. Nor would such a requirement make
practical sense. As explained above, Congress enacted the delegating statute under which
the regulations were promulgated to “ensure [the] use [of federal property] for the
authorized purpose.” Cassiagnol, 420 F.2d at 876. An immigration judge is authorized to
ensure proper use of a courtroom over which the judge presides, including maintaining
order over that courtroom. Even Moriello’s own definition of “authorized individuals” is
inconsistent with her proposed requirement that their authority derive from GSA
regulations. Moriello asserts that “authorized individuals” include “individuals of a similar
nature to Federal police officers,” including “individuals such as United States Marshals.”
Opening Br. at 43. Yet, United States Marshals—like immigration judges—work for the
Department of Justice and do not receive their authority from GSA regulations. See Chabal
v. Reagan, 841 F.2d 1216, 1219 (3d Cir. 1988) (“United States Marshals are officers of the
Department of Justice.” (citing 28 C.F.R. § 0.5(a))).

16

USCA4 Appeal: 19­4464

Doc: 45

Filed: 11/18/2020

Pg: 17 of 20

PSOs also have the authority to issue lawful directions. PSOs are legally authorized
“to detain” people, “conduct administrative searches,” and “put people on notice.” J.A.
168. They are required “to be in uniform,” and they “look like an actual police officer”
with “a badge, gun,” and “patches on their shoulders” that show they have a relationship
with the Department of Homeland Security. J.A. 169. Except for the authority to make an
arrest, they have the full authority of FPS officers, including the “authority to enforce the
Federal Management Regulations” at the court facility. J.A. 168–69. To strip PSOs of the
authority to issue lawful directions would be to render them toothless.
Second, Moriello argues that neither Judge Pettinato’s nor PSO Bridges’s
instructions to stop using her phone were “lawful” because no federal regulation prohibited
such use. To the contrary, a violation of federal regulations is not a prerequisite for a lawful
direction. Judge Pettinato had the authority to give lawful directions during proceedings
over which he presided for the purpose of “maintain[ing] control over the courthouse and
over the conduct of persons in the courthouse.” Stevens, 877 F.3d at 1305. That authority
included instructing persons in the courtroom to cease distracting conduct. PSO Bridges
was authorized as the courtroom bailiff to convey Judge Pettinato’s lawful directions to the
same extent that Judge Pettinato was authorized to give those directions himself. As the
courtroom bailiff, PSO Bridges also had the authority to maintain proper order within the
courtroom separate and apart from the presiding judge’s authority. That authority included
directing Moriello to cease distracting conduct.
The district court correctly interpreted the Direction Regulation.

17

USCA4 Appeal: 19­4464

Doc: 45

Filed: 11/18/2020

Pg: 18 of 20

E.
Finally, we consider Moriello’s argument that the government failed to present
sufficient evidence to support her conviction under Count Two. Relevant here, the Conduct
Regulation prohibits “[a]ll persons entering in or on Federal property . . . from loitering,
exhibiting disorderly conduct[,] or exhibiting other conduct on property that . . .
[o]therwise impedes or disrupts the performance of official duties by Government
employees.” 41 C.F.R. § 102­74.390. Moriello argues that the government failed to
sufficiently prove that she disrupted the duties of Judge Pettinato.
Courts have applied similar regulations to conduct causing relatively minor
disturbances. See, e.g., United States v. Renfro, 702 F. App’x 799, 808 (11th Cir. 2017)
(per curiam) (concluding evidence that “employees who had been working left their offices
to check on what was happening” was sufficient to support finding that defendant “caused
a disturbance that impeded the VA’s normal operations”); United States v. Agront, 773
F.3d 192, 199–200 (9th Cir. 2014) (concluding evidence that altercation could be “heard
inside the facility” and that two employees “were drawn away from their ordinary tasks to
monitor the situation” was sufficient to establish a disturbance).
Moriello does not dispute any of the underlying facts. She used her phone during
ongoing immigration proceedings. Her conduct prompted Judge Pettinato to go off the
record to direct PSO Bridges to order Moriello to put her phone away. When PSO Bridges
requested that Moriello stop using her phone, she refused—repeatedly. Moriello stood up
and moved to the back of the courtroom while PSO Bridges continued to try to get her to
either stop using her phone or leave the courtroom. PSO Bridges requested help from a
18

USCA4 Appeal: 19­4464

Doc: 45

Filed: 11/18/2020

Pg: 19 of 20

second PSO, but together the two PSOs were still unable to convince Moriello to either
stop using her phone or leave—all while the immigration proceedings remained ongoing.
Judge Pettinato testified that he found Moriello’s phone use and her resulting interaction
with PSO Bridges and the additional officers to be “very disrespectful,” “very distracting,”
and “very disruptive visually.” J.A. 217–18. He eventually called a recess to allow the
PSOs to resolve the situation. We have little difficulty concluding that Moriello’s conduct
was sufficiently disruptive to Judge Pettinato’s official duties to satisfy the second element
of Count Two. 3
Moriello also argues that her conduct could not have disrupted the official duties of
PSO Bridges, because—though she apparently concedes that her conduct sufficiently
disrupted PSO Bridges’s duties—PSO Bridges is not a “Government employee.” Because
we find that Moriello’s conduct disrupted Judge Pettinato, we need not consider whether
PSO Bridges, a contractor, is a government employee.
Finally, Moriello argues that she is entitled to reversal of her conviction if we
conclude that she disrupted the official duties of either Judge Pettinato or PSO Bridges, but
not both.

“[W]hen a general verdict of guilty rests on two alternative theories of

prosecution, one valid and the other invalid, the verdict should be set aside if it is

3

Although Moriello argued that immigration judges are not government employees
to the district court, she did not present that argument to this Court on appeal and we
therefore consider it forfeited. Regardless, immigration judges—as employees of the
Department of Justice—are clearly government employees. See Am. Immigr. Laws. Ass’n
v. Exec. Off. for Immigr. Rev., 830 F.3d 667, 670 (D.C. Cir. 2016) (“Immigration judges
are career civil­service employees in the Department of Justice’s Executive Office of
Immigration Review.” (citing 8 U.S.C. § 1101(b)(4))).

19

USCA4 Appeal: 19­4464

Doc: 45

Filed: 11/18/2020

Pg: 20 of 20

‘impossible to tell which ground the jury selected.’” Bereano v. United States, 706 F.3d
568, 577 (4th Cir. 2013) (quoting Yates v. United States, 354 U.S. 298, 312 (1957)). Here,
the magistrate judge did not issue a written opinion; rather, he simply announced at the end
of the bench trial that “the Government has proved these two offenses beyond a reasonable
doubt.” J.A. 300. However, an alternative­theory error is “subject to harmless error
review.” Bereano, 706 F.3d at 577. An error made during a bench trial is harmless if “it
is clear that a rational fact finder would have found [the defendant] guilty absent the error.”
United States v. Palin, 874 F.3d 418, 422 (4th Cir. 2017) (alteration in original) (quoting
United States v. Poole, 640 F.3d 114, 120 (4th Cir. 2011)). It is indeed clear here “that a
rational fact finder would have found [Moriello] guilty absent the error” based on her
disruption of Judge Pettinato’s official duties. Id. Thus, even if PSO Bridges does not
qualify as a “Government employee” under § 102­74.390, the resulting alternative­theory
error would be harmless.
The district court properly found that sufficient evidence supports Moriello’s
conviction under Count Two.

IV.
It should come as no surprise that immigration judges and courtroom bailiffs have
the authority to reasonably control the conduct of persons within their courtrooms. For the
foregoing reasons, the district court’s judgment is
AFFIRMED.

20

USCA4 Appeal: 19­4464

Doc: 46­2

Filed: 11/18/2020

Pg: 1 of 1

FILED: November 18, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 19­4464
(1:18­cr­00187­MR­1)
___________________
UNITED STATES OF AMERICA
Plaintiff ­ Appellee
v.
REBECCA A. MORIELLO
Defendant ­ Appellant
___________________
JUDGMENT
___________________
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF NORTH CAROLINA
ASHEVILLE DIVISION
CRIMINAL CASE NO. 1:18-cr-00187-MR
UNITED STATES OF AMERICA,

)
)
Plaintiff/Appellee,
)
)
)
vs.
)
)
)
REBECCA MORIELLO,
)
)
Defendant/Appellant. )
_______________________________ )

ORDER

THIS MATTER is before the Court on the Defendant’s appeal from the
Judgment entered by the Magistrate Judge on July 17, 2018.

For the

reasons that follow, the Judgment is affirmed.
I.

PROCEDURAL BACKGROUND
On December 5, 2017, the Government charged the Defendant

Rebecca Moriello in a Bill of Information with failing to comply with the lawful
direction of an authorized individual while on property under the authority of
the General Services Administration (GSA), in violation of 41 C.F.R. §§ 10274.365, 102-74.385, and 102-74.450 (“the § 102-74.385 violation”), and
impeding and disrupting the performance of official duties by government

Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 1 of 32

employees while on GSA property, in violation of 41 C.F.R. §§ 102-74.365,
102-74.390, and 102-74.450 (“the § 102-74.390 violation”). [Doc. 1]. For
each violation, the Defendant faced a maximum possible penalty of 30 days’
imprisonment and a fine of no more than $5,000. See 41 C.F.R. §§ 10274.390, 102-74.450; 18 U.S.C. § 3571.

On December 28, 2017, the

Defendant filed five pretrial motions, including two motions to dismiss. [Docs.
7, 8, 9, 10, 11]. The Government responded to the Defendant’s motions to
dismiss on January 11, 2018. [Docs. 18, 19]. Judge Keesler denied both
motions to dismiss on February 1, 2018. [See Feb. 1, 2018 Minute Order].
The matter proceeded to a bench trial before Judge Keesler on July
12, 2018.

Judge Keesler found the Defendant guilty of both offenses

charged in the Bill of Information and imposed a $2,500 fine and a $10
assessment. [Doc. 38].
The Defendant now appeals. [Doc. 41]. Pursuant to a Scheduling
Order entered by this Court on July 30, 2018, and after being granted an
extension of time, the Defendant filed her appellate brief on September 13,
2018. [Doc. 46].

After receiving an extension of time to do so, the

Government filed a response brief on October 26, 2018. [Doc. 48].
Having been fully briefed, this matter is ripe for disposition.

2
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 2 of 32

II.

STANDARD OF REVIEW
An appeal of a judgment imposed by a United States magistrate judge

is reviewed by this Court using the same standards as are applied by the
Court of Appeals in reviewing a district court judgment. See 18 U.S.C. §
3742(h); see also Fed. R. Crim. P. 58(g)(2)(D) (“The scope of the appeal [of
a judgment entered by a magistrate judge] is the same as in an appeal to the
court of appeals from a judgment entered by a district judge.”). Accordingly,
the Court must “assess challenges to the sufficiency of the evidence by
viewing it -- including all reasonable inferences to be drawn therefrom -- in
the light most favorable to the Government.” United States v. Bursey, 416
F.3d 301, 306 (4th Cir. 2005). Further, the Magistrate Judge’s findings of
fact are reviewed only for clear error, while his conclusions of law are
reviewed de novo. United States v. Landersman, 886 F.3d 393, 406 (4th
Cir. 2018).

The Court reviews any evidentiary rulings for an abuse of

discretion. United States v. Hill, 322 F.3d 301, 304 (4th Cir. 2003).
III.

FACTUAL BACKGROUND
Viewed in the light most favorable to the Government, the evidence

adduced at trial established the following facts.
On June 29, 2017, Immigration Judge Barry J. Pettinato was
conducting an asylum hearing at the Immigration Court facility located at
3
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 3 of 32

5701 Executive Center Drive in Charlotte, North Carolina. [Doc. 45: Bench
Trial Transcript (“T.”) at 64]. Because the nature of the testimony that can
be given in an asylum hearing, it is a private, closed hearing. See 8 C.F.R.
§ 208.6(a)-(b). The Defendant, who is a licensed attorney, was present in
the gallery when the judge called the case, but she was not there to represent
any party. [Id]. In fact, she did not have any connection to the case. [T. at
45-46, 64-65].

When Judge Pettinato inquired of the asylum-seeker’s

attorney why the Defendant was present in the closed courtroom, the
asylum-seeker’s attorney said he had given the Defendant permission to sit
in and observe. [T. at 64]. Judge Pettinato pointed out that the attorney’s
permission was insufficient because only the asylum-seeker herself could
waive confidentiality protections. Judge Pettinato therefore required the
attorney to confer with his client and obtain that waiver. [T. at 64-65]. At this
point, the Defendant was seated a couple of rows behind the bar, in the
middle of the benches on the right-hand side of the courtroom. [T. at 65].
At first, Judge Pettinato was consumed with the preliminary matters of
getting the hearing started.

[T. at 65-66].

Once things settled down,

however, he looked up, and he could see the Defendant holding her cell
phone at about chest level. [T. at 66]. As Judge Pettinato observed the
Defendant, he could see that she was typing on the phone. [Id.]. The
4
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 4 of 32

behavior continued for some time, and Judge Pettinato testified that he found
the Defendant’s use of her phone in the gallery to be “very distracting.” [T.
at 67]. He further testified as follows:
Ms. Moriello had specifically asked for permission to
come into a private confidential asylum hearing
which is very rarely allowed. And I assumed it was so
that she could learn something from it. The entire
time that Ms. Moriello was sitting in my courtroom I
did not see her paying attention to what was going on
with the attorney or with the witness. She was pretty
much non-stop glued to her cell phone and she was
texting away, and I found it to be very distracting. I
also found it to be very disrespectful given that she
had asked for permission to sit in on this very
sensitive matter, and she was not paying attention.
[T. at 67-68].
Judge Pettinato summoned the courtroom bailiff, Protective Security
Officer (“PSO”) Pinar Bridges, who was in uniform and who had been
stationed at the front of the courtroom near the bench. [T. at 42-43, 45, 67].
Judge Pettinato went off the record to speak with PSO Bridges and
specifically instructed PSO Bridges to “go ask Ms. Moriello to put away her
phone and to stop texting.” [T. at 67]. PSO Bridges went to approach the
Defendant, while Judge Pettinato went back on the record to continue with
the proceeding. [Id.].

5
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 5 of 32

Unbeknownst to Judge Pettinato, during the preliminaries, PSO
Bridges had already approached the Defendant once about the same
problem. PSO Bridges testified that she is particularly vigilant about
monitoring the use of electronic devices when she acts as bailiff for asylum
proceedings because she knows that such proceedings are confidential and
people often share sensitive information which, if disclosed, could endanger
their safety. [T. at 44].
When the asylum proceeding in question began, PSO Bridges saw the
Defendant in the gallery looking down, and when she approached for a closer
look, PSO Bridges saw that the Defendant was using her phone. [T. at 4546]. PSO Bridges testified that the policy in the Charlotte Immigration Court
was to allow attorneys to use their phones inside the immigration courtrooms
for “business purposes.” [Id.].1 However, PSO Bridges also testified that she

PSO Bridges’ testimony is consistent with a sign posted outside of the courtroom which
states as follows:
1

USE OF ELECTRONIC DEVICES PROHIBITED
Persons in EOIR [Executive Office for Immigration Review]
space must turn off their electronic devices (e.g., smartphone,
laptop). For clear and immediate business purposes only,
attorneys and other representatives are exempt from this rule
and may use electronic devices in EIOR space.
No person in permitted to use any device to take audio or
video recordings, or still photographs.
6
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 6 of 32

knew the Defendant was not representing anybody and therefore had no
immediate business inside the courtroom. [Id.]. Furthermore, PSO Bridges
knew that the Defendant maintained an office on the first floor of the same
building where the Immigration Court was located. [T. at 54]. She therefore
saw no possible need for the Defendant to use the phone to manage outside
business from inside the courtroom during the asylum proceeding. [T. at 5354]. PSO Bridges therefore politely asked the Defendant to turn off her
phone, explaining that the Defendant could not use her phone in the
courtroom. [T. at 46]. The Defendant ignored PSO Bridges’ direction, telling
PSO Bridges that it was “her right” to use her phone in the courtroom. [T. at
47]. The Defendant continued to use her phone in the gallery, despite PSO
Bridges’ request.
PSO Bridges then approached the Defendant a second time, on Judge
Pettinato’s instructions.

PSO Bridges testified that she went to the

Defendant and told her that the Judge had directed that she “get off the
phone.” [T. at 47-48]. The Defendant became argumentative, telling PSO
Bridges that she could “do whatever she wants” that she was using her
phone for business purposes. [T. at 47-48]. The conversation continued,

[Doc. 40-1: Govt. Ex. 1-11] (emphasis added).
7
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 7 of 32

with PSO Bridges repeatedly conveying to the Defendant that the instruction
came from the Immigration Judge. [T. at 48]. PSO Bridges testified that the
Defendant responded to her direction by stating that “she can do whatever
she wants.” [T. at 48].
Judge Pettinato observed PSO Bridges talking “back and forth” with
the Defendant for a considerable period of time. While their conversation
was not loud, Judge Pettinato found the exchange to be visually disruptive.
[T. at 69]. At some point, Judge Pettinato observed that the Defendant got
up and moved to the back of the courtroom, as PSO Bridges was still trying
to get her to either shut off the phone or leave the courtroom. [T. at 69-70].
PSO Bridges requested for the assistance of a second security officer. Both
security officers were standing over the Defendant in the back corner
attempting to get her to stop using the cell phone to no avail. PSO Bridges
then left in order to call the Charlotte-Mecklenburg Police Department to
come and assist in the matter, in light of the Defendant’s refusal to cooperate.
[T. at 70].
Eventually, Judge Pettinato called a recess in the ongoing asylum
hearing and left the bench. [T. at 48]. While Judge Pettinato was in recess,
the Defendant continued to sit in the courtroom and to use her phone, even
though there was no hearing in progress.

The CMPD officers who

8
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 8 of 32

responded to PSO Bridges’ call arrived around that time, and they asked
PSO Bridges to convey again, in their presence, the Immigration Judge’s
command to the Defendant to stop using her cell phone. [T. at 48-49].
Therefore, accompanied by the officers, PSO Bridges re-entered the
courtroom and told the Defendant to get off her phone and to leave the
courtroom. [T. at 48-49]. The Defendant still refused. [T. at 48]. The CMPD
officers then escorted the Defendant out of the courtroom and spoke with her
about leaving the premises. According to PSO Bridges, the Defendant in
response “basically said that [the] Judge cannot tell her what to do. That’s
her right. She can be on the phone. It’s business purposes only.” [T. at 49].
Two Federal Protective Services (“FPS”) Officers arrived to assist
PSO Bridges as well. One of the FPS Officers wrote the Defendant a Central
Violations Bureau (“CVB”) citation accusing her of violating 41 C.F.R. § 10274.385. [T. at 60-61].
The Defendant admitted to using her cell phone use in the courtroom
gallery on June 29, 2017. [T. at 116]. She further admitted that she ignored
PSO Bridges’ first command to stop. [Id.]. She confirmed that she ignored
PSO Bridges’ second command to stop as well, despite PSO Bridges
explicitly informing her that the instruction was coming from Judge Pettinato.
[T. at 116-17].

When asked why she disregarded Judge Pettinato’s
9

Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 9 of 32

instruction, as transmitted through PSO Bridges, the Defendant testified, “I
thought [PSO Bridges] was lying. I thought she was making it up.” [T. at 117].
The Defendant herself acknowledged, however, that the Immigration Judge
had the discretion to ban cell phone use -- even for business purposes -- in
his courtroom when the use of the phone posed a disruption.2 [T. at 120].
The Defendant’s own witness, Kofi Bentsi-Enchill, confirmed that the
Defendant’s conduct caused an interruption in the asylum hearing that was
underway. Mr. Bentsi-Enchill was counsel for the asylum-seeker during the
hearing in question; he was the one who obtained his client’s waiver to allow
the Defendant to sit in and observe. [T. at 100-01]. When defense counsel
asked Mr. Bentsi-Enchill whether he recalled “any disturbance whatsoever”
during the course of the hearing, Mr. Bentsi-Enchill testified as follows:
I do recall during the course of the hearing -- I’m not
sure exactly what happened because my focus was,
you know, toward the front of the court, and she was
seated in the back. As I mentioned, I believe I heard
the deputy or the security guard say something about
-- well, made some kind of comment. I can’t recall
exactly what the statement made was, but he
addressed Ms. Moriello. And then the Judge at that
point interrupted the hearing.

The Defendant denied that her cell phone use was a disruption to Judge Pettinato. [T.
at 120].
10
2

Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 10 of 32

[T. at 101-02]. Mr. Bentsi-Enchill also recalled “some discussion about
whether or not Ms. Moriello was recording the hearing,” although he
disclaimed any personal knowledge of whether she was. [T. at 102].
IV.

DISCUSSION
A.

Statutory and Regulatory Background

Before turning to the issues raised by the Defendant in her appeal, the
Court first examines the statutes and regulations underlying the Defendant’s
offenses of conviction.
The Defendant was found to have violated two of the conduct
prohibitions contained within the Federal Management Regulation (“FMR”).
The FMR governs the day-to-day operations of properties under the authority
of the Government Services Administration (“GSA”). See 41 C.F.R. §§ 1022.5, 102-2.10. These regulations were promulgated pursuant to 40 U.S.C. §
1315(c)(1), through which Congress delegated authority to the GSA to
establish such rules. The FMR’s conduct prohibitions are located within
Subpart C of Title 41, Subtitle C, Chapter 102, Subchapter C, Part 102 of the
Code of Federal Regulations. The introduction to Subpart C provides, in
pertinent part, as follows:

11
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 11 of 32

To whom does this subpart apply?3
The rules in this subpart apply to all property under
the authority of GSA and to all persons entering in or
on such property. Each occupant agency shall be
responsible for the observance of these rules and
regulations. Federal agencies must post the notice
in the Appendix to this part at each public entrance
to each Federal facility.
41 C.F.R. § 102-74.365.
The FMR sections that follow this introductory provision establish rules
of conduct for persons on property controlled by the GSA, see 41 C.F.R. §§
102-74.370 through 102-74.455, and penalties for violations of those rules
of conduct, see 41 C.F.R. § 102-74.450. See also 40 U.S.C. § 1315(c)(2).
The Magistrate Judge found that the Defendant violated two of those rules
of conduct: (1) the rule penalizing persons who fail to follow lawful directions,
41 C.F.R. § 102-74.385, and (2) the rule prohibiting disorderly conduct, 41
C.F.R. § 102-74.390.
B.

Sufficiency of the Evidence

The Defendant first challenges the sufficiency of the evidence
submitted by the Government with respect to Counts One and Two.

The title of each regulation in the FMR poses a question, while the body of each
regulation answers that question. The GSA believes that this “‘plain language’ regulatory
style” is desirable because it is “easy to read.” 41 C.F.R. § 102-2.140.
12
3

Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 12 of 32

In assessing the sufficiency of the evidence presented to a magistrate
judge in a bench trial, the Court “must uphold a guilty verdict if, taking the
view most favorable to the Government, there is substantial evidence to
support the verdict.” United States v. Landersman, 886 F.3d 393, 406 (4th
Cir. 2018) (quoting United States v. Armel, 585 F.3d 182, 184 (4th Cir.
2009)). “Substantial evidence” is “evidence that a reasonable finder of fact
could accept as adequate and sufficient to support a conclusion of a
defendant's guilt beyond a reasonable doubt.” Id.
1.

Count One

In Count One of the Bill of Information, the Government charged the
Defendant with a violation of 41 C.F.R. § 102-74.385, which provides as
follows:
What is the policy concerning conformity with
official signs and directions?
Persons in and on [GSA] property must at all times
comply with official signs of a prohibitory, regulatory
or directory nature and with the lawful direction of
Federal police officers and other authorized
individuals.
41 C.F.R. § 102-74.385. In order to convict the Defendant of this regulation,
the Government was required to prove: (1) that the Defendant was on
property under the authority of GSA; (2) that the Defendant knowingly failed
13
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 13 of 32

to comply with the direction of a Federal police officer or other authorized
individual; and (3) that the direction with which the Defendant failed to comply
was lawful. It is not disputed that the Defendant was on property under the
authority of GSA. It is further undisputed that that the Defendant received a
direction from an Immigration Judge, communicated through that Judge’s
bailiff, to stop using her cell phone in the courtroom.

The Defendant,

however, argues that the Government failed to prove beyond a reasonable
doubt that the Immigration Judge was an “authorized individual” to issue
such command and, thus, failed to prove that the command was “lawful.”
[Doc. 46 at 11-16, 17-20].
While the Defendant couches this argument in terms of whether the
evidence was sufficient to support her convictions, her argument actually
relates to questions of law, not to the sufficiency of the evidence. The factual
evidence presented – that is, that an Immigration Judge issued a directive,
communicated through the courtroom bailiff, to the Defendant to stop using
her cellphone in his courtroom and that the Defendant refused to abide by
that directive – is not in dispute. Rather, the Defendant challenges the
Magistrate Judge’s legal conclusions that the Immigration Judge is an
“authorized individual” and that his command to stop using a cell phone
within his courtroom was a “lawful direction” within the meaning of § 10214
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 14 of 32

74.385. These are questions involving the interpretation of the applicable
regulations, which presents a question of law that the Court reviews de novo.
See Radford v. Colvin, 734 F.3d 288, 293 (4th Cir. 2013); Frahm v. United
States, 492 F.3d 258, 262 (4th Cir. 2007).
The Court construes a regulation employing the same rules applicable
to construing statutes. Harris v. Norfolk S. Ry. Co., 784 F.3d 954, 962 (4th
Cir. 2015). If the language of the regulation “has a plain and ordinary
meaning, courts need look no further and should apply the regulation as it is
written.” Gilbert v. Residential Funding LLC, 678 F.3d 271, 276 (4th Cir.
2012) (citation and internal quotation marks omitted).

If, however, the

language is ambiguous, “the intent of Congress or the Agency concerning
the disputed language must be resolved through application of various
settled rules of construction and interpretation, including analysis of the
underlying statute’s structure and purpose.” Am. Alternative Ins. Co. v.
Sentry Select Ins. Co., 176 F. Supp. 2d 550, 554-55 (E.D. Va. 2001)
(citations omitted).
Here, § 102-74.385 requires all persons on GSA property to comply
“with the lawful direction of Federal police officers and other authorized
individuals.” 41 C.F.R. § 102-74.385. While the term “authorized individuals”
is not explicitly defined in the FMR, the plain and ordinary meaning of that
15
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 15 of 32

term clearly encompasses immigration judges who are holding court in
courtrooms located on GSA property.
An examination of other federal statutes, regulations, and case law
confirms this interpretation. Pursuant to regulations promulgated by the
Attorney General, immigration judges “are attorneys whom the Attorney
General appoints as administrative judges within the Office of the Chief
Immigration Judge to conduct specified classes of proceedings, including
[removal] hearings….”

8 C.F.R. § 1003.10(a).

In conducting removal

hearings and other proceedings assigned to them, immigration judges are
authorized to “exercise the powers and duties delegated to them by the Act
and by the Attorney General through regulation.” 8 C.F.R. §1003.10(b). In
deciding such cases, immigration judges are authorized to “exercise their
independent judgment and discretion and may take any action consistent
with their authorities under the Act and regulations that is appropriate and
necessary for the disposition of such cases.”

Id. (emphasis added).

Furthermore, immigration judges are granted the authority in removal
hearings to “receive and consider material and relevant evidence, rule upon
objections, and otherwise regulate the course of the hearing.” 8 C.F.R. §
1240.1(c) (emphasis added). Based on this authority, both the Executive
Office for Immigration Review (EOIR) and the federal courts have held that
16
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 16 of 32

an immigration judge has the authority to maintain control of his or her
courtroom. See The United States Department of Justice, EOIR, Ethics and
Professionalism Guide for Immigration Judges, at 3 (“at times an Immigration
Judge must be firm and decisive to maintain courtroom control”) 4; see also
Stevens v. Osuna, 877 F.3d 1293,1305-07 (11th Cir. 2017) (discussing
immigration judge’s authority and obligation to maintain control over the
courtroom).
These authorities make clear that an immigration judge, like any judge
who is presiding over a matter, is authorized to give commands in the
courtroom in order to ensure the efficiency, integrity, and solemnity of the
proceedings. It therefore follows, as a matter of common sense, that an
immigration judge presiding over a hearing in a courtroom that is located on
GSA property is an “authorized individual” within the meaning of 41 C.F.R. §
102-74.385.
Here, Judge Pettinato testified that he found the Defendant’s use of
her cell phone in the courtroom during a sealed asylum proceeding to be
distracting and disrespectful, and that is why he told her to stop. [T. at 6768]. Common sense dictates that a directive issued by an Immigration Judge

Available at: https://www.justice.gov/sites/default/files/eoir/legacy/2013/05/23/Ethics
andProfessionalismGuideforIJs.pdf (last visited June 6, 2019).
4

17
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 17 of 32

to an observer in the courtroom to cease engaging in conduct that was
distracting to the Judge is clearly a “lawful direction” within the meaning of
the regulation.5
For all these reasons, the Defendant’s challenge to her conviction
under Count One is rejected.
2.

Count Two

In Count Two of the Bill of Information, the Government charged with
the Defendant with a violation of 41 C.F.R. § 102-74.390, which provides as
follows:
What is the policy concerning disturbances?
All persons entering in or on Federal property are
prohibited from loitering, exhibiting disorderly
conduct or exhibiting other conduct on property
that—
(a) Creates loud or unusual noise or a nuisance;
(b) Unreasonably obstructs the usual use of
entrances, foyers, lobbies, corridors, offices,
elevators, stairways, or parking lots;

The Defendant was charged with disobeying the commands of Judge Pettinato, as
transmitted by PSO Bridges. As such, the Court need only resolve whether Judge
Pettinato is an “authorized individual” for the purposes of this appeal. Nevertheless, the
Court finds that the plain and ordinary meaning of “authorized individuals” would also
encompass a private security officer acting as a courtroom bailiff in an immigration
courtroom, as the purpose of having a uniformed bailiff in a courtroom is to maintain
proper order, even without the presiding judge exerting his or her authority. Thus, even
if the Government had charged the Defendant with disobeying the lawful directives of
PSO Bridges, the Defendant’s conviction would still have been proper.
18
5

Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 18 of 32

(c) Otherwise impedes or disrupts the performance
of official duties by Government employees; or
(d) Prevents the general public from obtaining the
administrative services provided on the property in a
timely manner.
41 C.F.R. § 102-74.390. The Defendant contends that her conviction on
Count Two must be overturned because the Government failed to prove that
PSO Bridges was a “Government employee,” for purposes of establishing
that the Defendant’s conduct impeded or disrupted any Government
employees’ official duties within the meaning of subsection (c).
Again, the Defendant conflates a question of fact with a question of
law. What constitutes a “Government employee” within the meaning of §
102-74.390(c) is a question of law for the Court to determine. See Frahm,
492 F.3d at 262; Leone v. United States, 910 F.2d 46, 49 (2d Cir. 1990)
(“Whether a person is a government employee or an independent contractor
is a question of federal law.”). In determining whether someone is a federal
employee, courts have held that “the strict control test, as well as principles
of agency, govern [the] inquiry.” Leone, 910 F.2d at 49 (analyzing claim
under Federal Tort Claims Act). The critical factor is the Government’s ability
to supervise the day-to-day activities of the employee in question. See

19
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 19 of 32

generally Robb v. United States, 80 F.3d 884, 887-890 (4th Cir. 1996)
(analyzing claim under Federal Tort Claims Act).
The relevant facts are not in dispute. At the time of the events in
question, PSO Bridges was a Protective Security Officer working for GSA at
the Charlotte Immigration Court. FPS Special Agent Skrtic testified that
Protective Security Officers who “have the power to detain, conduct
administrative searches, [and] put people on notice[,]” but they cannot make
full arrests. [T. at 19]. PSOs have the authority to enforce the FMR on GSA
property and to give instructions to visitors to federal facilities. [Id.]. At the
Charlotte Immigration Court, PSOs work security at the entrance to the
facility, and they serve in the immigration courtrooms in a bailiff capacity
similar to that of the Court Security Officers who serve this Court. [Id.]. PSO
Bridges’ direct supervisor was a lieutenant in her organization, but she
testified that she is required to follow the instructions of Judge Pettinato when
she works in his courtroom. [T. at 52]. Judge Pettinato confirmed his
authority to direct the activities of bailiffs within his courtroom. [T. at 85-86].
In sum, PSO Bridges worked every day in a federal facility, for a
company providing security services at that federal facility under the
supervision of the FPS, and she was subject to the supervision of the
Immigration Judges in the Charlotte Immigration Court on a daily basis. In
20
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 20 of 32

every meaningful sense, she was a “Government employee” within the
meaning of the regulation.
Further, it is evident that the Defendant’s conduct disrupted PSO
Bridges in the performance of her official duties. PSO Bridges had to leave
her post at the front of the courtroom near the bench in order to ask the
Defendant to put her cell phone away. When the Defendant’s behavior
continued and was noted by Judge Pettinato, PSO Bridges had to return to
the gallery to convey to the Defendant Judge Pettinato’s instruction to cease
the use of her phone. When the court had recessed and the Defendant still
refused to comply with Judge Pettinato’s instructions, PSO Bridges had to
summon the CMPD and other federal officers to the scene to address the
issue. Clearly, the Defendant’s conduct disrupted the performance of PSO
Bridges’ official duties, as well as those duties being carried out by other
federal police officers on the premises.
Regardless of whether PSO Bridges was a “Government employee” or
not, however, there was also ample evidence presented to the Magistrate
Judge that the Defendant’s conduct also disrupted the performance of Judge
Pettinato’s duties. Judge Pettinato testified that the Defendant’s use of her
phone in the gallery was a distraction to him in overseeing the asylum
proceeding that was underway.

[T. at 67].

He also testified that the

21
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 21 of 32

disturbance caused by her extended exchange with PSO Bridges in the
gallery was visually disruptive for him. [T. at 69]. While the Defendant seeks
to minimize the Judge’s testimony [see Doc. 46 at 17], the Court must credit
Judge Pettinato’s testimony when conducting a review of the sufficiency of
the evidence.
For these reasons, the Court concludes that there was sufficient
evidence to convict the Defendant on Count Two.
C.

Void for Vagueness Challenge

Next, the Defendant challenges the denial of her pretrial motion to
dismiss this prosecution on the grounds that 41 C.F.R. §§ 102-74.385 and
102-74.390 are unconstitutionally vague.
“The void-for-vagueness doctrine requires that penal statutes define
crimes so that ordinary people can understand the conduct prohibited and
so that arbitrary and discriminatory enforcement is not encouraged.” United
States v. Smith, 703 F. App’x 174, 177 (4th Cir. 2017), cert. denied, 138 S.
Ct. 697 (2018) (quoting United States v. Klecker, 348 F.3d 69, 71 (4th Cir.
2003)). “[A] court considering a vagueness challenge must determine if the
statutory prohibitions are set out in terms that the ordinary person exercising
ordinary common sense can sufficiently understand and comply with.”
United States v. Whorley, 550 F.3d 326, 333 (4th Cir. 2008) (citation and
22
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 22 of 32

internal quotation marks omitted). “A statute is impermissibly vague if it
either (1) fails to provide people of ordinary intelligence a reasonable
opportunity to understand what conduct it prohibits or (2) authorizes or even
encourages arbitrary and discriminatory enforcement.” Giovani Carandola,
Ltd. v. Fox, 470 F.3d 1074, 1079 (4th Cir. 2006) (quoting Hill v. Colorado,
530 U.S. 703, 732 (2000)) (internal quotation marks omitted).

The

determination of whether a regulation is impermissibly vague must be made
on a case-specific basis. See United States v. Baldwin, 745 F.3d 1027, 1031
(10th Cir. 2014) (Gorsuch, J.) (“[U]nder governing precedent, a defendant
won’t be heard to complaint about the vagueness of a criminal law as it
applies to other defendants in other cases. He may complain only about the
vagueness of the law as it applies in his own case.”) (emphasis in original).
In United States v. Cassiagnol, the defendant challenged his conviction
for disorderly conduct and unwarranted loitering under 41 C.F.R. § 10119.304, the predecessor to the disorderly conduct regulation at issue. 420
F.2d 868 (4th Cir. 1970).

The Fourth Circuit rejected that argument,

reasoning as follows:
The regulation in question made it clear that
‘unseemly and disorderly conduct’ and ‘unwarranted
loitering * * * and assembly’ on this property were
proscribed. It would not require a high degree of
intelligence or understanding for one to reasonably
23
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 23 of 32

conclude that breaking through a line of United
States marshals who were lined up between the
demonstrators and the Pentagon, a government
building of highly strategic importance to the defense
of the United States, could subject him to charges for
disorderly conduct or that remaining on government
property which was closed to the public during
nonbusiness hours (according to the rules and
regulations of GSA posted in the demonstration area)
beyond the expiration of the demonstration permit
could subject him to charges for disorderly conduct
or unwarranted loitering and assembly.
Id. at 873-74.
Here, the Defendant was charged with “imped[ing] or disrupt[ing] the
performance of official duties by Government employees” and with failing to
comply “with the lawful direction of . . . authorized individuals” on government
property. 41 C.F.R. §§ 102-74.385, 102-74.390. It does not require a high
degree of intelligence or understanding for a reasonable person to conclude
that refusing to comply with the directive of an immigration judge or a
courtroom bailiff to cease using a cell phone during a closed removal
proceeding in an immigration courtroom could subject a person to charges
for failing to follow lawful directions and disrupting the performance of
government employees’ official duties. See Cassiagnol, 420 F.2d at 873-74;
see also Baldwin, 745 F3d at 1032 (rejecting vagueness challenge to §§ 10274.385 and 102-74.390, noting “it’s clear enough from the terms of the
24
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 24 of 32

regulations before us that, whatever else they do or don’t proscribe, driving
off while a uniformed officer is busy issuing a warning, and doing so over the
officer’s instructions to stop, counts as disobeying that person’s directions
and disrupting performance of his official duties”). Such an outcome should
have been particularly apparent to someone such as the Defendant, who is
in trained in the law and is a regular practitioner in the immigration courts.
The Defendant’s vagueness challenge is rejected.
D.

Unconstitutional Delegation of Congressional Authority

Next, the Defendant argues that the regulations at issue violate both
the separation of powers doctrine and the Tenth Amendment’s delegation of
rights to the People.
As noted supra, the subject regulations were promulgated pursuant to
40 U.S.C. § 1315(c)(1), through which Congress delegated authority to the
GSA to establish such rules. The Defendant cites no authority in support of
her argument that this delegation was unconstitutional.

Moreover, the

Defendant completely ignores the fact that the Fourth Circuit has already
addressed this issue with respect to § 1315’s predecessor, 40 U.S.C. § 318,
and held that this delegation of authority was proper. See Cassiagnol, 420
F.2d at 876; see also United States v. Crowthers, 456 F.2d 1074, 1077 (4th
Cir. 1972). In Cassiagnol, the Fourth Circuit concluded that the statute was
25
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 25 of 32

a proper delegation of authority because the power delegated to GSA was
limited to property under its control, restricted the authority of GSA to “make
needful rules and regulations to maintain and protect such property and
ensure its use for the authorized purpose,” and specified the limits of
punishment. Cassiagnol, 420 F.2d at 876. Noting that similar grants of
authority were common for national parks, forests, and battlefields, the
Fourth Circuit stated that “[t]o require Congress specifically to enumerate
GSA’s duties would be to require the impractical, if not the impossible.” Id.
The Cassiagnol Court’s analysis of § 40 U.S.C. § 318 is dispositive
here. Like its statutory predecessor, § 1315 describes a general policy,
designates a specific agency to implement the regulations, specifies the
parameters of that authority, and requires the regulations to be posted in a
conspicuous manner. Accordingly, the Court concludes that 40 U.S.C. §
1315 is not an unconstitutional delegation of power by Congress. The
Magistrate Judge correctly denied the Defendant’s motion to dismiss based
on a violation of the separation of powers doctrine.
E.

Rule 404(b) Evidence

For her final assignment of error, the Defendant contends that the
Magistrate Judge erred in excluding impeachment evidence under Rule 404.

26
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 26 of 32

During the Defendant’s cross-examination of Judge Pettinato, defense
counsel asked: “Have you had complaints that have been sustained against
you?” Judge Pettinato responded, “I have not.” [T. at 87]. Defense counsel
then proceeded to ask Judge Pettinato whether there had been a complaint
of bias made against him for stating on the record during a hearing that there
appeared to be “a lot of asylum fraud.” [T. at 88]. The Government objected
to this line of questioning.

Specifically, the Government argued that

questioning the Immigration Judge about such complaint was not proper
impeachment because it was neither a crime, a conviction, or an act of
truthfulness or untruthfulness. [Id.]. Defense counsel argued that such
questioning was proper under Rule 404 as demonstrating the bias of the
witness. [T. 92]. When the Magistrate Judge sustained the Government’s
objection, defense counsel made an offer of proof of various complaints filed
with the Assistant Chief Immigration Judge (ACIJ) for which Judge Pettinato
received “oral or written counseling”. The Defendant now argues that she
should have been permitted to question Judge Pettinato further about these
complaints, and that the documentation of these complaints should have
been admitted as evidence of Judge Pettinato’s bias.

27
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 27 of 32

It appears that the Defendant’s counsel sought to introduce this
evidence via two different arguments.

First, he sought to employ the

approach under Federal Rule of Evidence 608(b). He asked Judge Pettinato
whether he had had any complaints “sustained” against him. When Judge
Pettinato answered in the negative [T. at 87], counsel sought to crossexamine him with seventeen complaint forms.

[Doc. 37-1].

There are

several problems with this tactic. First, the complaint forms do not show any
of the complaints being “sustained.” They show that Judge Pettinato had
received “oral counseling” or “written counseling” in several of these, but
there is nothing on the face of the forms that show that such counseling was
anything more than Judge Pettinato being informed of the complaint. They
show no sanction being imposed or even any finding of wrongdoing by Judge
Pettinato. Second, Rule 608(b) states that such “extrinsic evidence is not
admissible to prove specific instances of a witness’s conduct in order to
attack or support the witness’s character for truthfulness. But the court may,
on cross-examination, allow them to be inquired into….” Fed. R. Evid. 608(b)
(emphasis added). Allowing such inquiry is in the discretion of the trial judge.
Here, the Magistrate Judge, in the exercise of his sound discretion,
disallowed the evidence. That would be appear to be the end of the inquiry
using the approach under Rule 608(b).
28
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 28 of 32

Apparently recognizing that his Rule 608(b) argument was foreclosed
by the Magistrate Judge’s ruling, defense counsel argued that the complaints
were nonetheless admissible under Rule 404(b).

There are several

problems with this approach. Rule 404(b) allows for evidence of “a crime, a
wrong, or other act” to prove any relevant point other than “to prove a
person’s character in order to show that on a particular occasion the person
acted in accordance with the character.” Fed. R. Evid. 404(b)(1). The
proffered documents, however, do not tend to prove any such “crime, wrong,
or other act.” They are merely records that demonstrate someone has
alleged such an act. Even if the documents themselves fall within the
hearsay exception for records of regularly conducted activity (i.e., the
“business records exception” under Federal Rule of Evidence 803(6)), that
does not cover the second level of hearsay for the out-of-court statements
by the complainants to the record keeper. Likewise, the documents do not
fall within the exception for “factual findings from a legally authorized
investigation,” Fed. R. Evid. 803(8)(A)(iii), because there are no findings on
these documents, only a record of the allegations.
Next, the documents do not tend to prove what the Defendant argues
they prove.

The Defendant argues that these documents demonstrate

Judge Pettinato’s bias against immigration attorneys. Only three out of the
29
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 29 of 32

seventeen complaints, however, pertain to Judge Pettinato’s treatment of
immigration attorneys: one alleges that Judge Pettinato made an
inappropriate remark regarding the ethnicity of an attorney representing an
asylum seeker [Doc. 37-1 at 3]; another alleges that Judge Pettinato
threatened an attorney with sanctions for making an argument that the Judge
found to be frivolous [id. at 4]; and a third alleges unspecified “inflammatory”
comments about an attorney [id. at 5]. Most of the others pertained to
alleged procedural shortcomings in Judge Pettinato’s actions, and such
things as being rude to a technician or even questioning the authority of the
BIA. [Id.].
Even if the evidence tended to show what the Defendant argues, using
this evidence in this manner would construe Rule 404(b) in a manner so as
to completely eviscerate the limitation in Rule 608(b) in instances where the
trial court has found that the extrinsic evidence of the witness’s veracity is
venturing too far afield of the issues at hand. This would be directly contrary
to Rule 404(a)(3), which allows for the admission of character evidence
concerning a witness only as set forth in Rules 607, 608, and 609.
Moreover, the Defendant’s argument demonstrates that this evidence
was not actually being offered to impeach Judge Pettinato’s credibility as a
witness, but rather to insinuate that he had initiated a selective prosecution
30
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 30 of 32

of the Defendant because she is an immigration attorney. Judge Pettinato,
however, did not initiate this prosecution.

This was not a contempt

proceeding. The Defendant was cited by an FPS officer, and the case was
prosecuted by the Department of Justice. Judge Pettinato was a witness in
the trial, not a prosecutor.
For all these reasons, the Magistrate Judge’s exclusion of the
complaint documents and the cross-examination of Judge Pettinato
regarding the complaints was proper and consistent with Rules 404 and 608
of the Federal Rules of Evidence.
In sum, the Court concludes that there is sufficient evidence to support
the Defendant’s conviction; the regulations under which the Defendant was
convicted are not constitutionally infirm; and the Magistrate Judge did not
abuse his discretion in limiting the admission of impeachment evidence.
Accordingly, the Court concludes that the Judgment entered by the
Magistrate Judge should be affirmed in all respects.
ORDER
IT IS, THEREFORE, ORDERED that the Judgment of the Magistrate
Judge is hereby AFFIRMED.

31
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 31 of 32

The Clerk of Court is DIRECTED to provide copies of this Order to
counsel for the Defendant, counsel for the Government, and the United
States Marshal’s Service.
IT IS SO ORDERED.
Signed: June 7, 2019

32
Case 1:18-cr-00187-MR Document 52 Filed 06/07/19 Page 32 of 32

AO 245H (WDNC Rev. 4/04) Judgment in a Criminal Case for a Petty Offense (Short Form) Sheet1

United States District Court
For The Western District of North Carolina
UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE
(Petty / Misdemeanor Offenses)

V.
Case Number:

1:17-po-00006-DCK

Rebecca A. Moriello
W Rob Heroy
Defendant’s Attorney
THE DEFENDANT:
‫܆‬
‫܆‬
‫܈‬
‫܆‬

pleaded guilty to count(s)
pleaded guilty to violation(s)
pleaded not guilty to count(s) 1 and 2
pleaded not guilty to violation(s)

Title and Section

Nature of Offense

Date of Offense

Counts

41 CFR 102-74.356,41 CFR
102-74.385, 41, and CFR 10274.450
41 CFR 102-74.365, 41 CFR
102-74.390, and 41 CFR 102102-74.390, and 41 CFR 10274.450

Failure to comply with law
direction

June 29, 2017

1

Did impede and disrupt the
the performance of official
duties

June 29, 2017

2

‫܆‬
‫܆‬
‫܈‬

Counts(s) (is)(are) dismissed on the motion of the United States.
Violation Notice(s) (is)(are) dismissed on the motion of the United States.
Found guilty as to: 1 and 2

IMPOSITION OF SENTENCE: Counts 1 and 2 consolidated for judgment and the court enters the following: $2,500 fine
plus a $10 assessment. All monies due 30 days from the entry of the judgment.

Date of Imposition of Sentence: 7/12/2018
Signed: July 17, 2018

RETURN
I have executed this Judgment as follows:
___________________________________________
___________________________________________________________________________________
___________________________________________________________________________________
Defendant delivered on _________________________ to __________________________
at ____________________________________, with a certified copy of this Judgment.
By _____________________________________________
United States Deputy Marshal

Case 1:17-po-00006-DCK Document 38 Filed 07/17/18 Page 1 of 1

Federal Management Regulation

§ 102-74.405

applicable provisions is a violation of
these regulations.

GAMBLING

What is the policy con­
cerning gambling?

1102-74.395

PRESERVATION OF PROPERTY

What is the policy con­
cerning the preservation of prop­
erty?

§ 102-74.880

All persons entering in or on Federal
property are prohibited from(a) Improperly disposing of rubbish
on property;
(b) Willfully destroying or damaging
property;
(c) Stealing property;
(d) Creating any hazard on property
to persons or things; or
(e) Throwing articles of any kind
from or at a building or climbing upon
statues, fountains or any part of the
building.
CONFORMITY WITH SIGNS AND
DmEC1l'IONS

What is the policy con­
cerning conformity with oi!icial
signs and directions?

§ 102-74..386

Persons in and on property must at
all times comply with official signs of
a prohibitory, regulatory or directory
nature and with the lawful direction of
Federal police officers and other au­
thorized individuals.
DISTURBANCES

What is the policy con­
cerning disturbances?

§ 102-74.890

All persons entering in or on Federal
property are prohibited from loitering,
exhibiting disorderly conduct or exhib­
iting other conduct on property that-(a) Creates loud or unusual noise or a
nuisance;
(b) Unreasonably obstructs the usual
use of entrances, foyers, lobbies, cor­
ridors, offices, elevators, stairways, or
parking lots;
(c) Otherwise impedes or disrupts the
performance of official duties by Gov­
ernment employees; or
(d) Prevents the general public from
obtaining the administrative services
provided on the property in a timely
manner.

(a} Except for the vending or ex­
change of chances by licensed blind op­
erators of vending facilities for any
lottery set forth in a State law and au­
thorized by section 2(a)(5) of the Ran­
dolph-Sheppard Act (20 U.S.C. 107 et
seq.}, all persons entering in or on Fed­
eral property a.re prohibited from(1) Participating in games for money
or other personal property;
(2) Operating gambling devices;
(3) Conducting a lottery or pool; or
(4) Selling or purchasing numbers
tickets.
(b) This provision is not intended to
prohibit prize drawings for personal
property at otherwise permitted func­
tions on Federal property, provided
that the game or drawing does not con­
stitute gambling per se. Gambling per
se means a game of chance where the
participant risks something of value
for the chance to gain or win a prize.
NARCOTICS AND OTHER DRUGS

What is the policy con­
cerning the possession and use of
narcotics and other clrogs?

§ 102-74.400

Except in cases where the drug is
being used as prescribed for a patient
by a licensed physician, all persons en­
tering in or on Federal property are
prohibited from(a) Being under the influence, using
or possessing any narcotic drugs,
hallucinogens,
marijuana,
barbitu­
rates, or amphetamines; or
(b) Operating a motor vehicle on the
property while under the influence of
alcoholic beverages, narcotic drugs,
hallucinogens,
marijuana,
barbitu­
rates, or amphetamines.
ALCOHOLIC BEVERAGES

What is the policy con­
cerning the use of alcoholic bev­
erages?

§ 102-74..406

Except where the head of the respon­
sible agency or his or her designee has
granted an exemption in writing for
the appropriate official use of alcoholic
beverages, all persons entering in or on
Federal property a.re prohibited from

213

I

�I
PILE8

ASHEVIUE, N.C.

DEC 0 5 2017
UNITED STATES DIST RICT COURT

U.S. DISTRICT COURT
W. D!ST. OF N.C.

WESTERN DISTRICT OF N O RTH CAROLINA
CHARLOTTE DIVISION

UNITED STATES O F AMERICA

/.

)

DOCKET NO.

)

(CVB/Petty Offense)

•

/�,PD t:e

)

BILL OF INFORMATION

)

v.

)
)

Violations:

)
)

41C.F.R. 102- 74.365

)

41 C. F.R. 102-74.385

)
��������.)

41C.F.R. 102-74.45 0

REBECCA A. MORIELLO

41C.F.R.102-74.39 0

THE UNITED STATES ATTORNEY CHARGES:
Count One
On or about June 29, 2 017, in Mecklenburg County, within the Western District of N orth
Carolina, the defendant,

REBECCA A. MORIELLO
did fail to comply with the lawful direction of an authorized individual, that is, an immigration judge,
while on property under the authority of the General Services Administration (GSA), that is, the
United States Immigration Court located at 5 7 01 Executive Center Drive, Suite 4 0 0, Charlotte, NC
28212, in that the defendant continued to use a cellular phone in. an immigration courtroom despite
the command of the presiding immigration judge, transmitted th rough a private security officer, that
the defendant cease such use within the courtroom.
All in violation of 41C.F.R. 102-74.365, 41 C.F.R. 102-74.385, and 41C.F.R. 102-74.45 0.

1

Case 1:17-po-00006-DCK Document 1 Filed 12/05/17 Page 1 of 2

' I

,/

Count Two
On or about June 29, 2 017, in Mecklenburg County, within the Western District of N orth
Carolina, the defendant,

REBECCA A. MORIELLO
did impede and disrupt the performance of official duties by government employees while on property
under the authority of the General Services Administration (GSA), that is, the United States
Immigration Court located at 5 7 01 Executive Center Drive, Suite 4 0 0, Charlotte, NC 28212, in that
the defendant created a disturbance by refusing commands from an immigration judge and a private
security officer to cease the use of a cellular phone within that judge's courtroom during a sealed
asylum proceeding.
Allin violation of 41C.F.R. 102- 74.365, 41C.F.R. 102- 74.39 0, and 41C.F.R.102-74.45 0.

10 0 Otis Street, Suite 2 3 3
Asheville, NC 288 01
Telephone: (828) 2 71-4661
Facsimile: (828) 2 71-46 7 0
Daniel.Bradley@usdoj.gov

2

Case 1:17-po-00006-DCK Document 1 Filed 12/05/17 Page 2 of 2

United States District Court .------......
Violation Notice
Violation Number

()")

6.923402·

....-.�....-...
....�����������
...
w

·.i\)

- �������--�--....-.�������..-----��-.
... ,(A)

-�
11:1,Q
11:sc.::..uz.�'...l----.JJ�.l.4'-'6i!.L!=.:����:...._---1 T'V

VEHICLE

VIN:

Tag No.

A

CMVo
State

Year

lil_ IF

BOX A IS CHECKED, YOU
MUST APPEAR IN COURT...see
INSTRUCTIONS (on back of yellow copy).

Make/Model

B 0 IF

PASS o

Color

BOX B IS CHECKED, YOU MUST

PAY AMOUNT INDICATED BELOW
OR APPEAR IN COURT.
. ..
SEE INSTRUCTIONS (on back of yellow copy).

_$�----- Forfeiture Amount
+

PAY THIS

AMOUNT:-+

$

-

$30 Processing Fee
Total Collateral Due

YOUR COURT DATE
(Ir no court appearance date is shown, you will be notified of your appearance date by mail.)
Court Address

Date (mm/dd/yyyy)

Time(hh:mm)

My signature signifies that I h
I promise to appear for the h

a copy of this v!olalion notice. It is not an admission of guilt.
me and place instructed or pay the total collateral due.

X Defendant Signature
(Rev.

09/2015)

Original - CVB Copy

USA_00000036

(For issuance of an arrest warrant or summons)

The foregoing statement is based upon:
___

{>(_
c .•

'}(

my personal observation

my personal investigation

information supplied to me from my fellow officer's observation
other (explain above)

I declare u nder penalty of perjury that the

,.

information which I have

set forth

above and on

the face of this violation notice is true and correct to the best of my knowledge.
Executed

on:

.//,;
2eJ T = ":::/--,, .- -A"
�
-"'-:Ifktln/
4 "7,,;;
""; Ii
D�te (mrri/ddfYYyy)
Officer's Signature

�,
,'

.,._,..... -

· - -

-- - -· · - ·

--- ·

---.:..
:-··

. ·*

s

Probable cause has been stated for the issuance of a warrant

Date

(mm/dd/yyyy)

U.S. Magistrate Judge

HAZMAT =Hazardous material involved in incident: PASS= 9 or more passenger vehicle:

·coL =Commercial drivers license: CMV =Commercial vehicle involved in incident

USA 00000037

